          ~~~f{
          NATIONAL 

          ARCHIVES 

       OFFICE ~f 

  INSPECTOR    NERAL 


Date 	         December 4, 2012

Reply to : 	   Office of Inspector General (OIG)

subject   :	   Management Letter 13-04, Vulnerabilities in Managing the Student Workforce at the 

               National Personnel Records Center 


To 	           DavidS. Ferriero, Archivist ofthe United States (N)

While investigating unrelated allegations, the National Archives and Records Administration
(NARA) Office of Inspector General (OIG) identified at least one student employee at the
National Personnel Records Center (AFN) who may not have been properly enrolled in a
college, university, or other approved cojlfse of study during a portion of their employment with
NARA. Furthermore, various unofficial documentation is being used to initially verify students'
required enrollment status at AFN, and no reviews are being done to ensure students' enrollment
status does not change throughout the semester. This appears to be happening because there are
no official standards for the allowable enrollment documentation, and no requirements for
students to either certify they are maintaining their enrollment status, or show they maintained
their status throughout the class period. These conditions show vulnerabilities in how NARA is
managing the student workforce at AFN, which should be considered as NARA transitions into
the new government-wide Pathways Programs.

Student Employment Programs

Under Executive Order 13562, the Student Temporary Employment Program (STEP) and
Student Career Experience Program (SCEP) are in the process of converting to the Pathways
Programs. Like STEP and SCEP, the Pathways Programs are designed to provide students
enrolled in a wide variety of educational institutions, from high school to graduate level, with
opportunities to work in agencies and explore Federal careers while still in school and while
getting paid for the work performed. OPM regulations governing the Pathways Programs have
become effective, but NARA has until January 6, 2013 to transition to the Pathways Programs.
Both STEP and the corresponding Pathways Program, the Pathways Internship Program, require
students to be enrolled, or accepted for enrollment, in a qualified educational institution on at
least a half-time basis.

NARA Directive 311, Employment ofStudents, dated October 10,2006 (NARA 311), currently
controls the STEP program at NARA, but is in the process of being updated for the Pathways
Programs. This provides an excellent opportunity to review how NARA 311 has been
implemented, and identify potential areas of improvement. As mandated by OPM, NARA 311
requires STEP employees be enrolled on a half-time basis, as defined by the school in which the
student is enrolled. Further, paragraph 311.15 states administrative officers or supervisors must
verify student enrollment at the beginning of the semester or quarter, and allows the verification
to be "in the form of a letter from the school or other documentation." Paragraph 311.21 also
makes it clear employees who no longer meet the definition of student must be terminated.

However, there is a lack of clear guidance as to exactly what constitutes sufficient documentary
evidence the student is enrolled in courses at the beginning of the semester. There are also no
policies requiring the student to certify they will maintain their enrollment status, notify NARA
immediately of any changes, or verify they maintained their eligibility for the STEP program
throughout the semester. The latter could be done by submitting documentation at the end of the
semester, preferably in the form of official transcripts.

Limited Review of Implementing the Current NARA 311

While conducting an investigation, we reviewed several students' files at AFN. We noted a lack
ofthoroughness and consistency in documenting 1) enrollment within academic courses and 2)
verification academic courses were actually completed as planned and agreed by the employee.
One student appears to not have attended college for several semesters during the course of their
employment with NARA. There was also a lack of consistency with respect to the types of
documentation contained within the employee files to prove student enrollment. Examples of
proof submitted by employees include letters and emails from class advisors indicating the
employee was enrolled at the college or university, printouts from online registration systems,
unofficial transcripts, bills from the colleges or universities, and screenshots apparently
generated from the employees' online college account. No official transcripts were used to
document either employee enrollment in, or employee completion of, coursework.

Management officials involved with the current version ofNARA 311 were asked about the
potential for fraud wherein an employee enrolls in a program, provides proof of enrollment to the
supervisor, then withdraws from the courses to avoid tuition costs. NARA management agreed
this is a possibility, and stated they have heard rumors of employees engaging in this conduct at
other agencies. Further, NARA management stated NARA lacks consistency in verifying
enrollment, as some supervisors are more thorough than others in verifying if employees are
actively enrolled in an approved program.

Redrafting NARA Guidance for Transition to the Pathways Programs

Efforts are currently underway to redraft NARA policy and guidance to reflect the transition to
the Pathways Programs, providing an excellent opportunity to include processes to improve
NARA's internal controls and better protect NARA from waste, fraud, and abuse. However,
NARA management has stated the redraft ofNARA 311 currently does not address any of the
issues identified above.




                                                      Page 2
                             l\TntinMnl .Jv.rohilw[" nMrl Poronrr/C" .Jrln11'MiC'frntinn
•





     We encourage you to consider the following while redrafting NARA 311:

        • 	 Provide more detailed guidance on what type of documentation is acceptable to verify a
            student's enrollment status at the beginning of a semester. While there is no mandate to
            use official transcripts in the implementing OPM regulations, encouraging the use of
            official transcripts would provide an added layer of protection against potential fraud.
        • 	 Require students to sign a form certifying they will maintain their enrollment status, and
            notify NARA immediately if they drop to less than half-time as defined by their
            educational institution. The Office of General Counsel (NGC) should review any form
            for sufficient legal warnings so students know providing false or misleading information
            or certification regarding enrollment may be punishable under applicable law.
        • 	 Require returning students produce documentation, such as official transcripts,
            demonstrating they were properly enrolled in a course of study during the previous
            semester. This provides proof the student fulfilled their commitment, and would provide
            a substantial deterrent to fraud.

      Please provide a written response to these matters within 30 days of the date ofthis letter. If
     you have any questions or require additional information, please contact me or John Simms, my
     counsel, at 301-837-1966. As with all OIG products, we will determine what information is
     publicly posted on our website from this management letter. Should you or management have
     any redaction suggestions based on FOIA exemptions, please submit them to my counsel within
     one week from the date ofthis letter. Should we receive no response within this time frame, we
     will interpret that as confirmation NARA does not desire any redactions to the posted report.




     James Springs
     Acting Inspector General




                                                        Page 3
                                  l\TnfinMnl ilrr-hi,w~ nMA PornrAco LIAn11'niC'frntinn
